CERTIFICATE OF COMPLIANCE
Case No. 20-891
Caption: American Axle & Manufacturing, Inc. v.
Neapco Holdings LLC and Neapoco
Drivelines LLC.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 3,416 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 5, 2021.

Nicole Garcia
Record Press, Inc.

Sworn to before me on
February 5, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
ommission Expires September 16, 2023

